No. 20-843

 

IN THE

Supreme Court of the Gnited States

NEw YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL.,
Petitioners,
ve

KEVIN P. BRUEN, IN His OFFICIAL CAPACITY AS
SUPERINTENDENT OF THE NEW YORK STATE POLICE, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Courts of Appeals
for the Second Circuit

BRIEF OF MARCH FOR OUR LIVES ACTION FUND AS
AMICUS CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,803 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
